NO. ___________
___________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
___________________________________________
ERIC TROY SNELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
___________________________________________
APPENDIX
___________________________________________

Michael F. Smith
THE SMITH APPELLATE LAW FIRM
7566 Main Street, Suite 307
Sykesville, MD 21784
(202) 454-2860
smith@smithpllc.com
Counsel for Petitioner

USCA4 Appeal: 19-4351

Doc: 44

Filed: 07/27/2020

Pg: 1 of 4

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4351

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
ERIC TROY SNELL,
Defendant - Appellant.

Appeal from the United States District Court for the District of Maryland, at Baltimore.
Catherine C. Blake, District Judge. (1:17-cr-00602-CCB-1)

Submitted: July 23, 2020

Decided: July 27, 2020

Before WILKINSON, MOTZ, and RICHARDSON, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Michael F. Smith, SMITH APPELLATE LAW FIRM, Sykesville, Maryland, for
Appellant. Robert K. Hur, United States Attorney, Derek E. Hines, Assistant United States
Attorney, Leo J. Wise, Assistant United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Baltimore, Maryland, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

App. 01

USCA4 Appeal: 19-4351

Doc: 44

Filed: 07/27/2020

Pg: 2 of 4

PER CURIAM:
Eric Troy Snell appeals the 108-month sentence imposed following his guilty plea
to conspiracy to distribute and possess with intent to distribute heroin and cocaine, in
violation of 21 U.S.C. §§ 841(a)(1), 846 (2018). Snell, a Philadelphia police officer,
conspired with members of the Baltimore Police Department to sell illegal narcotics that
Snell’s coconspirators seized in their official law enforcement capacity. On appeal, Snell
contends that the district court erred in applying a two-level sentencing enhancement for
obstruction of justice, pursuant to U.S. Sentencing Guidelines Manual § 3C1.1 (2018), and
an additional two-level enhancement for possession of dangerous weapons, pursuant to
USSG § 2D1.1(b)(1). Snell further contends that the district court erred by not applying a
downward adjustment, pursuant to USSG § 3E1.1, for acceptance of responsibility.
Finding no reversible error, we affirm.
We “review[] a sentence for reasonableness, . . . appl[ying] a deferential abuse-ofdiscretion standard.” United States v. Ketter, 908 F.3d 61, 67 (4th Cir. 2018) (internal
quotation marks omitted). We first “must ensure that the district court committed no
significant procedural error,” such as improperly calculating the Sentencing Guidelines
range, failing to consider the 18 U.S.C. § 3553(a) (2018) sentencing factors, or
inadequately explaining the sentence imposed. Gall v. United States, 552 U.S. 38, 51
(2007).

If the sentence is free from significant procedural error, we review it for

substantive reasonableness, “tak[ing] into account the totality of the circumstances.” Id.
“[I]t is unnecessary to vacate a sentence based on an asserted [G]uidelines
calculation error if we can determine from the record that the asserted error is harmless.”

App. 02

USCA4 Appeal: 19-4351

Doc: 44

Filed: 07/27/2020

Pg: 3 of 4

United States v. McDonald, 850 F.3d 640, 643 (4th Cir. 2017). We therefore “proceed
directly to an ‘assumed error harmlessness inquiry.’” United States v. Gomez-Jimenez, 750
F.3d 370, 382 (4th Cir. 2014) (internal quotation marks omitted).
A Guidelines error is considered harmless if we determine that (1) the district
court would have reached the same result even if it had decided the
[G]uidelines issue the other way, and (2) the sentence would be reasonable
even if the [G]uidelines issue had been decided in the defendant’s favor.
Id. (internal quotation marks omitted).
Our review of the record reveals that any error by the district court in calculating
the Guidelines range is harmless. The court expressly stated that even if it had incorrectly
calculated the Guidelines range, it would have imposed the same 108-month sentence. This
alternative variant sentence readily satisfies the first prong of the assumed error
harmlessness inquiry.
Turning to the second prong, we conclude that Snell’s 108-month sentence is
substantively reasonable. The district court provided a thorough explanation for the
sentence it imposed, grounded in the relevant § 3553(a) factors. The court acknowledged
Snell’s mitigating arguments, including his remorse, his lack of criminal history, his
family’s support, and his role as a provider for his family. However, the court declined
Snell’s invitation to vary downward based on the conditions of his detention facility and
instead—granting a request from the Government—varied upward and imposed the chosen
108-month sentence, relying largely on the seriousness of the offense and the violation of
the public trust that occurs when police officers engage in an illegal drug conspiracy.
Because we conclude that these compelling considerations support the sentence Snell

App. 03

USCA4 Appeal: 19-4351

Doc: 44

Filed: 07/27/2020

Pg: 4 of 4

received, notwithstanding his arguments in mitigation, we conclude that any error in the
Guidelines calculation is harmless.
Accordingly, we affirm the district court’s judgment. We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED

App. 04

62

1
2

Conference at the bench.
(It is the policy of this court that every guilty plea and

3

sentencing proceeding include a bench conference concerning

4

whether the defendant is or is not cooperating.)

5

THE COURT:

Well, thank you, everyone.

I appreciate

6

the thoughtful advocacy on both sides, the presentence report,

7

the information that's been provided.

8

difficult for everyone, often frequently for a defendant's

9

family in particular.

10

Sentencing is extremely

Let me be clear, first of all, to the family and the

11

friends that are here that no one -- I would certainly never

12

say that someone is a monster, that someone is all bad.

13

Nothing like that at all.

14

Human beings are complicated, and obviously Mr. Snell

15

has done a lot of good in his life, in particular for his

16

family, and that's evident from everyone that's here for him,

17

and I'm sure that he appreciates that.

18

Sometimes the family does not always know the full

19

extent of even a close member of the family, a loved one's

20

behavior, doesn't always have a full picture of that.

21

I will also say, though, to the family -- and I think

22

particularly Ms. Robey -- regarding the conversation, I am not

23

taking into account the conversation that -- it was at least

24

ambiguous as to whether it was a threat.

25

into account in connection with the sentence that I'm about to

I am not taking that

Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter
App. 05

63

1
2

give Mr. Snell.
I will also just get out of the way first, also I did,

3

of course, read the supplemental request from Mr. Snell for a

4

downward variance for conditions at CDF.

5

I will say, as I generally do, I take that into

6

account, to the extent that -- I mean, the Court is aware that

7

there are difficult conditions at Chesapeake Detention

8

Facility.

9

it might impact someone.

10

It varies from time to time how much or how severely

We do our best to address those issues, most recently

11

with issues of air conditioning and heating and so forth.

12

think that is the appropriate way to deal with it is to do what

13

this court can to improve the conditions at Chesapeake

14

Detention Facility, but I don't see it as a basis for a

15

downward variance in this case.

16

Mr. Snell is asking for that, I am not taking that into account

17

either and I don't think it's justified.

18
19
20

I

And to the extent that

Mr. Snell has admitted, and was in the process of
being proven guilty, of a very serious offense.
Based on what was proved at the trial and what

21

Mr. Snell has admitted, he was assisting/attempting to assist

22

in the distribution of illegal drugs, both cocaine and heroin,

23

which are very significant dangers to other people's families.

24

Kill people.

25

There, unfortunately, perhaps, were other parts of
Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter
App. 06

64

1

Mr. Snell's family who are not here today -- perhaps an uncle,

2

perhaps a brother -- that it would appear have been involved in

3

the drug business and that Mr. Snell took that opportunity as

4

well.

5

I did find, based on the quantity of drugs and what I

6

believe to have been obstruction of justice as lying to the FBI

7

and his possession of the guns, including the unregistered,

8

illegal assault rifles, that the guideline range, just based on

9

that, was from 78 to 97 months.

10

I agree with the Government that that particular

11

guideline range does not take into account what is clearly an

12

abuse of a position of trust.

13

technical criteria for the guideline, but it is absolutely true

14

that Mr. Snell, who was so fortunate with a lot of applications

15

to become a police officer, took an oath to uphold the law, and

16

that's a very important, very important public trust, which,

17

unfortunately, he betrayed by engaging both in the illegal drug

18

distribution and the possession of the weapons that he was not

19

allowed to have.

20

I don't believe that it fits the

In terms of Mr. Snell's history and characteristics,

21

again, I certainly -- I believe and understand that he tried to

22

help his family.

23

conviction.

24
25

Of course, he does not have any other

His employment record here I don't think maybe
necessarily cuts particularly one way or the other.

He was

Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter
App. 07

65

1

trying to be involved in law enforcement.

2

been some issues with some of his employment that's really not

3

part of this offense, but I also can't say that he has an

4

exemplary employment record.

5

There appear to have

Mr. Snell, I believe that he is remorseful, and

6

certainly in the sense of being sorry that he's let down his

7

family with the position that he's in.

8
9

He told me today that he's fully accepting
responsibility.

I'll have to say that was not entirely clear

10

from his sentencing letter, which referred to this essentially

11

as a three-week mistake and giving into a friend, which I just

12

don't think is consistent with what was proved at the trial and

13

what he admitted to in the statement of facts.

14
15
16

So we then have to consider relative culpability and
where he is in regard to other defendants in this case.
Again, the conduct is very serious for the reasons

17

that I've explained.

18

extensive and repeated level of the personal abuses of power

19

committed by most of the other GTTF officers that I have had to

20

sentence.

I don't find that it rises to the really

21

While on the one hand, some were not involved in drugs

22

and he was, he was not taking them personally from anyone else.

23

And the evidence in front of me, there is a limited amount of

24

such drugs compared to much more extensive involvement that I

25

heard about in the GTTF matter.
Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter
App. 08

66

1

There is not evidence of Mr. Snell stealing or

2

extorting money from citizens that he arrested, invading homes,

3

making false reports in connection with his job, committing

4

overtime fraud.

5

complete comparison to the other GTTF officers is just not

6

appropriate.

7

It is simply, while very serious, I think the

Now, being where we are in terms of the offense level

8

and the seriousness and the guidelines, as I say, I don't think

9

the guidelines completely take into account Mr. Snell's abuse

10
11

of a position of trust as a police officer.
So I will say the sentence that I am about to

12

announce, even if I'm wrong on the guidelines, this is the

13

sentence that I think is appropriate under 3553(a) and is

14

sufficient without being greater than necessary, which is a

15

sentence of nine years, Mr. Snell.

16

years in the custody of the Bureau of Prisons.

17

with credit for time served.

18

That's 108 months, nine
It's obviously

I think that sufficiently recognizes what Mr. Snell

19

has done, is sufficient in regard to the other GTTF officers,

20

but I simply don't see that this rises to the level of the 12

21

and a half years that the Government had requested.

22
23
24
25

Following the period of imprisonment, Mr. Snell,
there's going to be three years of supervised release.
Special conditions of supervised release are going to
be participating in any mental health treatment that the
Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter
App. 09

67

1

probation officer recommends and any alcohol abuse testing or

2

treatment the probation officer recommends, and I'll say any

3

vocational programs that the probation officer recommends

4

because being a police officer is not something that will be

5

possible in the future.

6
7
8
9
10

I don't think your financial circumstances permit a
fine.

There's not going to be a fine.
There is a required $100 special assessment that I

will impose.
I'm certainly happy to recommend to the Bureau of

11

Prisons that you be designated to Schuylkill or Lewisburg or

12

I'll say some other facility consistent with your security

13

level that would enable you to be close to your family.

14

Frankly, the Bureau of Prisons has many things that

15

they will have to take into consideration in designating

16

Mr. Snell, as a former police officer, and that ultimately will

17

be up to them.

18

I'll recommend that Mr. Snell participate in any

19

substance abuse program that he's eligible for within the

20

Bureau of Prisons, which may include the RDAP program.

21

As Mr. Solomon recognizes, I don't know that he'll be

22

eligible for that in light of the weapons that are involved.

23

But certainly that does appear to be an issue for Mr. Snell,

24

particularly the alcohol.

25

Have I left anything out?

Anything I have not

Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter
App. 010

Case 1:17-cr-00602-CCB Document 89 Filed 05/01/19 Page 1 of 6

App. 011

Case 1:17-cr-00602-CCB Document 89 Filed 05/01/19 Page 2 of 6

App. 012

Case 1:17-cr-00602-CCB Document 89 Filed 05/01/19 Page 3 of 6

App. 013

Case 1:17-cr-00602-CCB Document 89 Filed 05/01/19 Page 4 of 6

App. 014

Case 1:17-cr-00602-CCB Document 89 Filed 05/01/19 Page 5 of 6

App. 015

Case 1:17-cr-00602-CCB Document 89 Filed 05/01/19 Page 6 of 6

App. 016

18 U.S.C. § 3553 – Imposition of a sentence
(a) Factors to be considered in imposing a sentence.--The court shall
impose a sentence sufficient, but not greater than necessary, to comply
with the purposes set forth in paragraph (2) of this subsection. The
court, in determining the particular sentence to be imposed, shall
consider—
(1) the nature and circumstances of the offense and the history and
characteristics of the defendant;
(2) the need for the sentence imposed-(A) to reflect the seriousness of the offense, to promote respect
for the law, and to provide just punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further crimes of the defendant;
and
(D) to provide the defendant with needed educational or
vocational training, medical care, or other correctional
treatment in the most effective manner;
(3) the kinds of sentences available;
(4) the kinds of sentence and the sentencing range established for-(A) the applicable category of offense committed by the
applicable category of defendant as set forth in the guidelines-(i) issued by the Sentencing Commission pursuant to
section 994(a)(1) of title 28, United States Code, subject to
any amendments made to such guidelines by act of
Congress (regardless of whether such amendments have
yet to be incorporated by the Sentencing Commission into
amendments issued under section 994(p) of title 28); and
(ii) that, except as provided in section 3742(g), are in
effect on the date the defendant is sentenced; or
(B) in the case of a violation of probation or supervised
release, the applicable guidelines or policy statements issued
by the Sentencing Commission pursuant to section 994(a)(3)
of title 28, United States Code, taking into account any

App. 017

amendments made to such guidelines or policy statements by
act of Congress (regardless of whether such amendments have
yet to be incorporated by the Sentencing Commission into
amendments issued under section 994(p) of title 28);
(5) any pertinent policy statement-(A) issued by the Sentencing Commission pursuant to section
994(a)(2) of title 28, United States Code, subject to any
amendments made to such policy statement by act of
Congress (regardless of whether such amendments have yet to
be incorporated by the Sentencing Commission into
amendments issued under section 994(p) of title 28); and
(B) that, except as provided in section 3742(g), is in effect on
the date the defendant is sentenced. 1
(6) the need to avoid unwarranted sentence disparities among
defendants with similar records who have been found guilty of
similar conduct; and
(7) the need to provide restitution to any victims of the offense.
(b) Application of guidelines in imposing a sentence.-(1) In general.--Except as provided in paragraph (2), the court shall
impose a sentence of the kind, and within the range, referred to in
subsection (a)(4) unless the court finds that there exists an
aggravating or mitigating circumstance of a kind, or to a degree,
not adequately taken into consideration by the Sentencing
Commission in formulating the guidelines that should result in a
sentence different from that described. In determining whether a
circumstance was adequately taken into consideration, the court
shall consider only the sentencing guidelines, policy statements,
and official commentary of the Sentencing Commission. In the
absence of an applicable sentencing guideline, the court shall
impose an appropriate sentence, having due regard for the purposes
set forth in subsection (a)(2). In the absence of an applicable
sentencing guideline in the case of an offense other than a petty
offense, the court shall also have due regard for the relationship of

App. 018

the sentence imposed to sentences prescribed by guidelines
applicable to similar offenses and offenders, and to the applicable
policy statements of the Sentencing Commission….
*

*

App. 019

*

